<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 114-496]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-496

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   on

S. 119                               S. 1993
S. 651/H.R. 1289                     S. 2039
S. 718                               S. 2061
S. 770                               S. 2177/H.R. 959
S. 1329/H.R. 2288                    S. 2309
S. 1577                              S. 2608
S. 1930/H.R. 3371                    S. 2620
S. 1943                              S. 2628
S. 1975                              H.R. 1949
S. 1982                              H.R. 2880
 


                               __________

                             MARCH 17, 2016

                               __________



                       Printed for the use of the
               Committee on Energy and Natural Resources
               
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]              
               
               

          Available via the World Wide Web: http://www.fdsys
          
          
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
21-969 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6a7d624d6e787e796568617d236e626023">[email&#160;protected]</a>           
          
          
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                     Subcommittee on National Parks

                         BILL CASSIDY, Chairman
ROB PORTMAN                          MARTIN HEINRICH
JOHN BARRASSO                        RON WYDEN
LAMAR ALEXANDER                      BERNARD SANDERS
MIKE LEE                             DEBBIE STABENOW
JOHN HOEVEN                          ANGUS S. KING, JR.
SHELLEY MOORE CAPITO                 ELIZABETH WARREN

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel, Public Lands and Natural Resources 
                                Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, Subcommittee Chairman and a U.S. Senator from 
  Louisiana......................................................     1
Heinrich, Hon. Martin, Subcommittee Ranking Member and a U.S. 
  Senator from New Mexico........................................     1
Mikulski, Hon. Barbara, a U.S. Senator from Maryland.............     2
Barrasso, Hon. John, a U.S. Senator from Wyoming.................     6

                                WITNESS

O'Dell, Peggy, Deputy Director for Operations, National Park 
  Service, U.S. Department of the Interior.......................     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alexander, Hon. Lamar:
    Statement for the Record.....................................    67
American Discovery Trail Society:
    Letter for the Record........................................    69
American Rivers:
    Letter for the Record........................................    74
Barrasso, Hon. John:
    Opening Statement............................................     6
Cardin, Hon. Benjamin:
    Statement for the Record.....................................    75
Cassidy, Hon. Bill:
    Opening Statement............................................     1
Civil War Trust:
    Statement for the Record regarding S. 718....................    78
    Statement for the Record regarding S. 1943...................    80
(The) Conservation Fund:
    Letter for the Record........................................    82
Coons, Hon. Chris:
    Statement for the Record.....................................    84
(The) Corps Network:
    Letter for the Record........................................    87
Daines, Hon. Steve:
    Photo for the Record.........................................    56
Enzi, Hon. Mike:
    Statement for the Record.....................................    92
Flake, Hon. Jeff:
    Statement for the Record.....................................   102
Friends of East Rosebud:
    Letter for the Record........................................   103
Heinrich, Hon. Martin:
    Opening Statement............................................     1
Kaine, Hon. Tim:
    Statement for the Record.....................................   105
Korean War Veterans Memorial Foundation:
    Letter for the Record regarding S. 1982 dated March 10, 2016.   106
    Letter for the Record regarding S. 1982 dated March 18, 2016.   108
Lecky, William:
    Letter for the Record........................................   110
McCain, Hon. John:
    Statement for the Record.....................................   112
Mikulski, Hon. Barbara:
    Opening Statement............................................     2
    Statement for the Record.....................................     4
National Congress of American Indians:
    Letter for the Record........................................   114
National EMS Memorial Foundation:
    Letter for the Record........................................   118
National Forest System, Forest Service, U.S. Department of 
  Agriculture:
    Statement for the Record.....................................   120
National Mall Liberty Fund DC:
    Statement for the Record.....................................   121
National Trust for Historic Preservation:
    Statement for the Record.....................................   126
Nelson, Louis:
    Letter for the Record dated March 11, 2016...................   129
    Letter for the Record dated March 23, 2016...................   131
O'Brien, Tony:
    Letter for the Record........................................   133
O'Dell, Peggy:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................    60
Orsino, James:
    Letter for the Record........................................   135
(The) Partnership for the 21st Century Conservation Service 
  Corps:
    Letter for the Record........................................   137
Quad Cities Convention & Visitors Bureau:
    Statement for the Record.....................................   144
Sewall-Belmont House & Museum:
    Letter for the Record........................................   145
Shaheen, Hon. Jeanne:
    Statement for the Record.....................................   146
Tan, Chief Lawrence:
    Letter for the Record........................................   148
Tester, Hon. Jon:
    Statement for the Record.....................................   150
Vet Voice Foundation:
    Letter for the Record........................................   151
Veterans of Foreign Wars of the United States:
    Letter for the Record........................................   153
Warner, Hon. Mark, and Kaine, Hon. Tim:
    Statement for the Record.....................................   154
Wyoming Tourism Board:
    Letter for the Record........................................   156

                                 ----------
                                 
                                 
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: http://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=DEDE40F9-C1A9-410E-
8F9E-DA68841AC019.

 
                          PENDING LEGISLATION

                              ----------                             



                        Thursday, March 17, 2016

                                     U.S. Senate,  
                          Subcommittee on National Parks,  
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:02 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Bill Cassidy, 
Chairman of the Subcommittee, presiding.

   OPENING STATEMENT OF HON. BILL CASSIDY, U.S. SENATOR FROM 
                           LOUISIANA

    Senator Cassidy [presiding]. The Subcommittee will come to 
order.
    I will keep my opening statement brief seeing as we have a 
full agenda examining 24 bills pending before the Subcommittee. 
The bills examine and cover a wide range of issues relating to 
the federal land administered by the Department of Interior and 
the Forest Service including National Park designations, 
special resource studies and boundary adjustments, memorial 
authorizations, a Wild and Scenic River designation and other 
related issues.
    Five of these bills have passed the House of 
Representatives, a few of these bills have been heard before in 
this Subcommittee and still others have been considered in 
previous Congresses.
    Although not all of these bills are without controversy, I 
am hopeful that we can move through the bills fairly quickly.
    The purpose of this hearing is to consider the 
Administration's views on these bills and allow Committee 
members an opportunity to ask any questions. We will also 
include any written statements that have been sent to the 
Subcommittee in the official hearing record.
    Again, because of the large number of bills on today's 
agenda I will not read through the list. We have one witness 
today, Ms. Peggy O'Dell, Deputy Director of Operations for the 
National Park Service. I wish to thank Ms. O'Dell for being 
here.
    Now let me turn to the Ranking Member, Senator Heinrich, 
for his remarks.

STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Mr. Chairman, and thank you 
for scheduling this hearing which includes 20 legislative 
proposals addressing a variety of national park and public land 
issues in several states across our great nation.
    Later this summer the National Park Service will celebrate 
its centennial anniversary. The many bills on today's agenda 
demonstrate the continued interest in building on the first 100 
years by adding other important sites to the National Park 
System and protecting important natural, historic and cultural 
resources which will enable us to better protect and understand 
the rich and diverse history of our country.
    Among others, I am pleased to see included the bill from 
Senator Tester and Senator Daines to designate part of the East 
Rosebud Creek as a Wild and Scenic River. I know protecting 
East Rosebud has been a priority for Montanans for many years 
now. We have four Wild and Scenic Rivers in New Mexico and they 
are certainly some of my constituents' favorite places to 
kayak, fish and camp with their families.
    In addition to many site-specific proposals, we are also 
going to be considering a bill to establish a 21st Century 
Conservation Service Corps to bring together many of the 
existing youth conservation corps programs into a single 
organization.
    I have a few questions about how that program would be 
implemented, and I look forward to hearing more on this and the 
other bills from the National Park Service witness.
    Thank you very much, Mr. Chair.
    Senator Cassidy: Thank you, Senator Heinrich.
    Senator Barrasso, would you like to make a----
    Senator Barrasso: I will yield for Senator Mikulski.
    Senator Cassidy: Okay.
    Senator Mikulski.

 STATEMENT OF HON. BARBARA MIKULSKI, U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Good afternoon, Chairman Cassidy and 
Senator Heinrich, Senator Barrasso.
    I am here on behalf of the 20 women of the United States 
Senate to ask you to consider the bill authorizing the Sewall-
Belmont House to be a national park site. This legislative 
initiative has the support of your Chair, Senator Murkowski, 
the Ranking Member, Senator Cantwell, and members of this 
Committee.
    As you talk about the centennial for the National Park 
Service, be aware that we are coming upon in 2020 the 
centennial for the passage of the 19th Amendment which gave 
women the right to vote. The Sewell-Belmont House was an 
important part of that American history. Though the house goes 
back to the 19th century, its importance was not so much its 
architectural features but the fact that it became the home to 
the women's party headed up by the indomitable Alice Paul.
    Many of you know this building because it is right next 
door to the Hart building. When the Hart building was being 
constructed there was a whole move to tear the house down. It 
was then, through the efforts of the women of the House led by 
Congresswoman Schroeder, Peggy Heckler, a bipartisan 
initiative, to make it a historic site.
    Well now the building has aged in place and so many of its 
resources are now going into the building so that they're 
cutting out their public tours, their educational programs and 
their research requests.
    We're asking that the Sewall-Belmont become part of the 
National Park Service because number one, the building can be 
maintained and preserved. The content of the building, the 
Alice Paul and the Women's Suffrage Collection will retain. You 
won't have to take ownership of that and all that goes into 
maintaining the collection. We'll take ownership of the 
building.
    We then hope with the new, if we confirm the new head of 
the Library of Congress, but the Library of Congress will work 
with them on the content.
    We've only, you know, we would hope that with all that the 
Park Service has on it why yet one more building? Well, one, 
this is quite a very important role in our American history.
    Number two, because of its symmetry to the Capitol you 
either have to maintain that building or the building could 
just go. It would be a very sad commentary if such a historic 
site, right within our very own eyes, would do that.
    So we ask that the Committee consider the transfer of the 
Sewall-Belmont House to do this and that it then become, 
through our work and also through private donors and so on, to 
be able to play a role in the commemoration of the passage of 
the 19th amendment.
    I think you would all say the work of Alice Paul, when you 
look at Senator Lisa, Senator Maria and so many of those of us 
who you admire, you would want this to go on. So that's what 
I'd ask you to do today.
    Senator Cassidy. Thank you, Senator Mikulski.
    Senator Mikulski. And I ask unanimous consent that my full 
statement be in the record. We won't march. We won't wear 
banners unless you don't pass the bill. [Laughter.]
    Thank you very much.
    Senator Cassidy. Without objection it is included in the 
record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cassidy. Senator Barrasso.

   STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this important hearing.
    One hundred years of service by the National Park Service 
is truly a remarkable achievement. Reaching such a milestone 
makes it even more important that current park assets remain 
open, safe, well maintained and attractive to the public.
    In my home State of Wyoming, Yellowstone and Grand Teton 
National Park experienced a record number of visitors this past 
year and they expect the same coming up in the year ahead.
    Several of the bills that we are considering today suggest 
adding important historic sites to the ever growing list of 
resources managed by the Park Service. When making these 
additions and looking forward to the next 100 hundred years of 
the National Park Service, I think it is just important, Mr. 
Chairman, that Congress and the Park Service make sound, 
responsible choices.
    I remain very concerned about the agency's ability to 
ensure the safety, the health and enjoyment of the public, let 
alone management of future assets in light of the maintenance 
backlog that we currently have. So I hope we will be able to 
discuss that as well today.
    Thank you, Mr. Chairman.
    Senator Cassidy. Thank you, Senator Barrasso.
    All members' statements will be added to the record.
    It is time to hear from our witness, and we could not have 
a better witness on St. Patrick's Day than Ms. O'Dell, who is 
not wearing green.
    We will just let that----
    Ms. O'Dell. I didn't want to be obvious. [Laughter.]
    Senator Cassidy. Ms. O'Dell is the Deputy Director of the 
National Park Service. I understand you are also presenting 
testimony from the Forest Service on a couple of these bills 
and thank you for doing so.
    At the end of your testimony we will begin questions and 
your full written testimony will be made part of the official 
hearing record.
    Ms. O'Dell, please proceed.

  STATEMENT OF PEGGY O'DELL, DEPUTY DIRECTOR FOR OPERATIONS, 
     NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Ms. O'Dell. Thank you, Mr. Chairman.
    One correction, I believe the Forest Service has submitted 
a written statement on their bill, so I will not be addressing 
that today.
    Thank you, Mr. Chairman, for the opportunity to present the 
Department of the Interior's views on the 19 bills that deal 
with the National Park Service on today's agenda. I would like 
to submit our full statement on each of these bills for the 
record and summarize the Department's views. So I will begin a 
long litany of numbers of bills and try to be very short and 
sweet so you can have questions.
    The Department supports the following bills:
    S. 2177 and H.R. 959 which would authorize a special 
resource study of the Medgar Evers House,
    S. 651 and H.R. 1289 which would authorize the Department 
to acquire by donation 44 acres of land for the John Muir 
Historic Site,
    H.R. 2880 which would re-designate the Martin Luther King, 
Jr. National Historic Site as the Martin Luther King, Jr. 
National Historical Park,
    S. 718 which would modify the boundary of Petersburg 
National Battlefield,
    S. 1943 which would modify the boundary of Shiloh National 
Military Park and establish Parkers Crossroads Battlefield as 
an affiliated area of the National Park System,
    S. 1975 which would establish the Sewell-Belmont House 
National Historic Site as a unit of the National Park System,
    S. 1993 which would establish the 21st Century Conservation 
Service Corps,
    S. 2309 which would establish the U.S. Civil Rights Network 
within the National Park Service,
    S. 2620 which would facilitate the addition of Park 
Administration at the Coltsville National Historical Park, and
    S. 2628 which would authorize the National Emergency 
Medical Services Memorial Foundation to establish a 
commemorative work in the District of Columbia.
    The reasons for our support of these bills are explained in 
our full statements.
    For several of the bills we are requesting amendments which 
we would be happy to work with the Committee on drafting.
    Regarding H.R. 2288 and S. 1329 which would remove the 
restrictions on certain lands transferred to Rockingham County, 
Virginia, the Department supports H.R. 2288 and would support 
S. 1329 if amended to conform to the language in H.R. 2288.
    Also regarding S. 1930 and H.R. 3371 which would authorize 
a boundary adjustment to Kennesaw Mountain National Battlefield 
Park, the Department supports S. 1930 and would support H.R. 
3371 if amended to conform to the language in S. 1930.
    The Department supports the intent of S. 119 which would 
provide for a lifetime National Recreational Pass for any 
veteran with a service connected disability. We believe many of 
our nation's veterans are already eligible for a free or 
reduced price pass under the Federal Lands and Recreation 
Enhancement Act. Also, it is unclear how we would determine the 
loss in total receipts in order to meet the bill's requirement 
to adjust entrance fees to compensate for lost revenue.
    The Department would support, if amended, S. 770 which 
would provide authority to Escambia County, Florida to convey 
property subject to certain conditions that it received from 
the Federal Government in 1947. The bill is intended to resolve 
a long standing, land use issue with the county. However, the 
Department would like to ensure that this bill does not result 
in the removal of protection for undeveloped lands that remain 
from the 1947 conveyance.
    The Department defers to the Department of Education for a 
position on S. 2061 which would designate a national memorial 
to fallen educators.
    Regarding S. 2039 which would designate the Mountain at 
Devil's Tower National Monument as Devil's Tower, the 
Department is concerned about any decisions made by this 
legislation without taking into account the views of the tribes 
in the area.
    Regarding S. 2608 which would require the Secretaries of 
the Interior and Agriculture to place signage denoting the 
American Discovery Trail on federal land, the Department would 
not oppose if amended to make the authority discretionary 
rather than mandatory.
    The Department opposes H.R. 1949 which would direct that 
the Secretary of Agriculture rather than the Secretary of the 
Interior or the Administrator of GSA be responsible for the 
consideration and submission of site and design proposals for 
the National Liberty Memorial. We believe this legislation 
would complicate the process for a memorial establishment under 
the Commemorative Works Act and would likely lead to delays in 
the establishment of the National Liberty Memorial.
    Finally, the Department opposes S. 1982 which would 
authorize a wall of remembrance as part of the Korean War 
Veterans Memorial because it would significantly alter the 
character of the existing memorial and it is inconsistent with 
the Commemorative Works Act.
    Mr. Chairman, this concludes my statement. I'd be pleased 
to answer any questions that you have.
    [The prepared statement of Ms. O'Dell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cassidy. Ms. O'Dell, according to the Park 
Service's own reports the maintenance backlog is currently 
$11.9 billion. It sounds like a great idea to add the Sewall-
Belmont House to the National Park Service but, of course, it 
begs the question how does that affect or would it add to the 
Park Service maintenance backlog?
    Ms. O'Dell. You know, that is always a really hard balance 
when we look at the significance of a structure and a site like 
the Sewall-Belmont House. The National Park Service is charged 
to evaluate sites like that and their potential for coming into 
the National Park Service on their national significance, their 
suitability, their feasibility and the ability to manage them 
as a unit of the Park Service. And that's what we base our 
decision and recommendation on.
    The Sewall-Belmont Home certainly meets all of those 
criteria, and we would be tasked with coming up with funding to 
support the continued upkeep of that home. And we also have 
great partners in the National Women's Party, who have 
dedicated themselves to the preservation of that site. So we 
believe between prioritizing the needs in our appropriation and 
working with the National Women's Party on philanthropy that we 
will be able to significantly care for the home.
    Senator Cassidy. Yes, but how much will it add to your 
maintenance backlog? Do you follow what I am saying? Knowing 
that you have got a big one and so, if you will, this could be 
a drop in the bucket. But do you have a sense of the needs of 
the property?
    Ms. O'Dell. I believe the estimate on the immediate needs 
for repairs to the home are about $1 million.
    Senator Cassidy. Okay. Do you think that could be covered 
by philanthropy or how much would come out of the budget?
    Ms. O'Dell. I believe that's a question yet to be 
determined.
    We need to look at what the projects actually are and look 
at our foundation to see how they can help us. But we are 
generally successful in finding donors to help preserve those 
significant sites, and we would pursue that along with using 
our appropriation and prioritizing the needs across the 
service.
    Senator Cassidy. Okay.
    Now regarding H.R. 2880, re-designating the Martin Luther 
King, Jr. National Historic Site as a national park, what is 
the significance of that change in designation?
    Ms. O'Dell. A National Historic Site generally refers to a 
single structure like a President's home, for example. The 
Martin Luther King, Jr. National Historic Site today is an 
amalgamation of many buildings and portions of the Sweet Auburn 
neighborhood, and this bill also suggests adding another site 
where the Southern Christian Leadership Council began their 
organization. And so the National Historical Park designation 
signifies that it is more than one structure.
    Senator Cassidy. So it sounds like originally it should 
have been designated a park as opposed to a site. Is that 
correct?
    Ms. O'Dell. Well I would say a historical park rather than 
a national park.
    Senator Cassidy. Yes, that is what I meant.
    Ms. O'Dell. The proposal is national historical park. And 
that, quite possibly could have been true in the beginning. I 
wasn't around then so I don't know the debate. [Laughter.]
    Senator Cassidy. Okay.
    In this hearing we have one special resource study bill to 
look at, the Medgar Evers home in Mississippi. The hearing we 
had in March last year we had three special resource study 
bills.
    This makes me wonder how many of these special resource 
studies the Park Service completes actually recommend inclusion 
in the Park System?
    Ms. O'Dell. That's a good question. I don't know that I 
know the percentage of completed bills that result in 
recommendations of inclusion. I can certainly get that number 
for you.
    [The information requested was not provided as of the date 
of printing.]
    Senator Cassidy. And what----
    Ms. O'Dell. We currently have about 25 studies in progress 
and this one would be added that to that mix.
    Senator Cassidy. And why would something be recommended 
against?
    Ms. O'Dell. If it didn't meet one or more of those criteria 
I mentioned earlier, the national significance, the 
feasibility, the suitability and if the National Park Service 
was the only management authority that would be sufficient.
    Senator Cassidy. Sounds great.
    Just to confirm as we have these boundary expansions of 
existing units, I take it these would be not condemnations but 
they would be donations or voluntary sellers.
    Ms. O'Dell. Yes sir, absolutely.
    Senator Cassidy. Okay.
    Lastly, regarding the Veterans Park and Federal Recreation 
Lands Pass, I have a young man working with me who is a 
veteran. I think he tells me he has a five percent disability 
because of his tinnitus, ringing in his ear. I have it, but I 
got it from listening to too much loud music as a teenager.
    Would that qualify, if he is otherwise able, exercises, 
jogs, plays soccer, all this other stuff? Would that five 
percent tinnitus qualify him for the free pass under this 
legislation?
    Ms. O'Dell. I believe this legislation says that if it is a 
permanent disability and if--and a veteran would normally show 
some certification of that to get that free pass.
    Actually in practice, the provisions for the access pass 
and the provision for the age pass would serve the need of this 
bill under current policies under FLREA for the most part.
    Senator Cassidy. Would it? I think what you are telling me 
is the bill is not necessary?
    Ms. O'Dell. We believe that we could meet this need with 
the current FLREA law and having it as a permanent 
authorization for the FLREA law would certainly help.
    Senator Cassidy. Okay.
    I now yield to my Ranking Member, Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    Ms. O'Dell, I wanted to ask you a little bit about S. 2039 
by our colleague from Wyoming. I know that the geologic feature 
in this bill is sacred to many Native American communities and 
has deep cultural importance. In fact, many of them have their 
own names for it.
    So I wanted to ask, has the Park Service consulted with 
neighboring tribes on the question of the name?
    Ms. O'Dell. We have, sir. We have had multiple 
conversations with the tribes in the area, and we believe we 
understand quite well how sacred this land is to the various 
tribes and why they are offended by its current name.
    And we are doing everything in our current authority to 
honor that. For example, in the development of foundation 
documents for that park we use both the terms Devil's Tower and 
Bear Lodge. So we're trying our very best to respect the 
sensitivities of the tribes.
    Senator Heinrich. Does the Board of Geographic Names at 
USGS conduct any sort of a tribal consultation process when 
they deal with naming areas that are significant to individual 
tribes?
    Ms. O'Dell. Yes, sir, I believe they do.
    When there is a request for a name change, the Board would 
reach out to any interested parties and certainly conduct 
tribal consultations.
    Senator Heinrich. I want to switch to S. 1993. I am a big 
supporter of national service programs, particularly those that 
get our youth outside and into our public lands.
    Last summer I got the chance to actually join the Rocky 
Mountain Youth Corps at Bandelier National Monument for a 
restoration service project where we stabilized some walls of 
those ancestral Puebloan ruins, and at one point I was actually 
an AmeriCorps volunteer myself with the Fish and Wildlife 
Service. So I very much support the concept here, but I noticed 
that this legislation includes an exemption from prevailing 
wage law, the minimum wage law, and child labor laws. Of 
course, national service volunteers are a little different than 
regular employees. I recognize that, but I want to make sure we 
are not waiving important worker protection laws.
    So can you talk a little bit about those waivers and 
whether we get that balance right in this legislation and also 
tell me if the same exemption exists in existing programs like 
AmeriCorps, or is this different?
    Ms. O'Dell. So I believe there's a similar exemption exists 
in both AmeriCorps and the Public Land Corps legislation that 
is already authorized and that we use. And we're aware of the 
Department of Labor's concerns and we've had extensive 
conversations with them and continue to make certain that we 
have the authority that we believe we have to pay different 
wage rates.
    And the reason that's so important and we hear it from our 
partners who support these youth groups that paying out 
respectable wage, one that is right for the service level that 
is provided, coupled with the time allowed that they have to be 
able to secure a permanent position strikes the right balance.
    Senator Heinrich. Okay.
    I think under AmeriCorps two of the waivers exist. I'm not 
sure the child labor waiver exists, so if we can just have that 
conversation and get to the bottom of that, I would appreciate 
it.
    Ms. O'Dell. We'll circle back with labor.
    Senator Heinrich. Thank you.
    Ms. O'Dell. You're welcome.
    Senator Cassidy. Senator King.
    Senator King. Thank you for joining us today, and I 
appreciate the work of the Park Service.
    Ms. O'Dell. Thank you, Senator.
    Senator King. Happy 100th Anniversary.
    Ms. O'Dell. Thank you.
    Senator King. I want to complement you and your Department 
on the work on the app for the passes. I understand we have 
pilot programs going into effect.
    Ms. O'Dell. Yes, you're so kind to mention that. Thank you.
    Senator King. Well, it means a lot and I think it is going 
to be a great thing for both the visitors and the Park Service, 
so I appreciate your work on that.
    Just one question and we cannot answer this today. But I 
just wanted to flag for your attention there is an issue with 
regard to the border of Acadia National Park.
    Ms. O'Dell. Yes.
    Senator King. Where the original 1929 Act appeared to be 
sort of open ended, there was an 1986 Act that was designed to 
establish permanent boundaries. We have got the Schoodic 
Peninsula property that has been accepted in apparent 
contradiction to the contravention to the 1986 law.
    So this is something we have to work on and try to get 
clarified. I understand there is going to be another hearing on 
some of these park bills in May, but my main purpose is just to 
bring it to your attention so that we, hopefully, can come to a 
resolution involving the Park Service and the Committee so that 
we can clarify this, the ambiguity that has been raised by this 
recent acquisition at Schoodic.
    Ms. O'Dell. Thank you, Senator.
    We are well aware of that contradiction, and we're working 
with our Solicitor's Office in trying to seek clarity on what 
authorities we have to use either one of those to accept the 
donation. So we will continue that dialogue and work with you.
    Senator King. One other question.
    There is a bill, S. 119, that I am a co-sponsor of, the 
Wounded Veterans Recreation Act, that would facilitate wounded 
veterans access to the parks.
    I would appreciate it and we don't have to do this today, 
but for the record if you could give me any cost estimate you 
might have that that would impose upon the Park Service.
    Ms. O'Dell. Thank you. We are contemplating how we might 
come up with that for you with some--any level of reliable 
data. So we'll continue to work on that and get back to you.
    Senator King. Fine. Thank you very much.
    Ms. O'Dell. Thank you, Senator.
    Senator Cassidy. Thank you, Senator.
    Senator Daines. I think I am supposed to note that you are 
not a member of the subcommittee, but you are joining us and we 
are pleased to have you.
    Senator Daines. Thank you, Mr. Chairman, and I appreciate 
that. I am very pleased to have that beautiful landscape behind 
me here in this discussion about the East Rosebud.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1969.045
    
    I want to thank you, Mr. Chairman, as well as Ranking 
Member Heinrich, for holding this hearing on Senate Bill 1577, 
a bill to protect the East Rosebud Creek under the Wild and 
Scenic Rivers Act.
    I was happy to introduce this bill alongside my Montana 
colleagues, Senator Jon Tester and Congressman Ryan Zinke, in 
June of last year and also when I was in the House as a lone 
representative when I was in Congress. The Wild and Scenic 
Rivers Act was originally spearheaded by two Montanans, Jon and 
Frank Craighead. They are well known for their research on 
grizzly bears.
    Ms. O'Dell. Yes.
    Senator Daines. We are very pleased to see a lot of that, I 
think, foundation work. I remember as a kid in Bozeman, growing 
up in the schools there watching the films and so forth of the 
Craighead's and that pioneering research they did on grizzly 
bears.
    Portions of two of Montana's famous rivers are designated 
as Wild and Scenic already. The Flathead River was designated 
on October 12th, 1976. The North Fork from the Canadian Border 
downstream to the Hungry Horse Reservoir, beautiful, wild 
country in Montana. The Missouri River was designated on 
October 12th, 1976, and the segment from Fort Benton downstream 
to Robinson Bridge.
    If Senate Bill 1577 becomes law it will be the first Wild 
and Scenic designation in Montana in 40 years, and if there's 
ever a drainage to protect, East Rosebud Creek is it. According 
to local stakeholders more than 90 percent of local landowners 
and all subdivision associations and ranches in a ten-mile 
radius are backing this bill.
    It is hard to get anybody to agree on any one topic. 
[Laughter.]
    With that kind of widespread situation for a five-mile 
radius the approval rate goes up to 99 percent. It is hard to 
get that kind of unanimity with anything here in Washington.
    This bill protects a drainage that fuels the bustling 
tourism county of South Central Montana, Carbon County. Tourism 
accounts for over $70 million per year in Carbon County. In 
fact, the East Rosebud drainage is part of the Absaroka Bear 
Tooth Wilderness where I grew up backpacking and fishing. I 
have plenty of stories that will take up too much time. Just 
this last summer my wife and I were up on those plateaus 
chasing golden trout with an elk hair caddis, just last August. 
Golden trout are hard to find and even harder to catch but we 
did both.
    The East Rosebud Creek Trail is called the Beaten Path in 
our state because nearly 6,000 to 7,000 visitors come from all 
over the world to hike along its shore and fish its many lakes, 
enjoy its many waterfalls. In fact, it is the third most hiked 
trail in the Bear Tooth and one of the launching spots to 
Granite Peak, a peak that I climbed when I was in college at 
the highest point in Montana at 12,799 feet.
    The bill would designate sections of East Rosebud Creek 
entirely on public land, 13 miles of the creek up to the 
wilderness boundary and a seven-mile segment as recreational up 
to the boundary with the Forest Service. The Forest Service has 
studied this area and recommends its wild and scenic 
designation in its forest plan. The Administration supports 
this bill. The entire Montana delegation supports this bill.
    There is no significant mineral potential within the 
protected area. Now there is some oil and gas activity outside 
of the wilderness area and private land neighboring this 
designation, though not within the designation.
    I plan to strengthen this bill in mark up to ensure this 
designation does not impact activities occurring outside the 
protected areas similar to language included in Representative 
Zinke's House companion bill and language that has been 
associated with Wild and Scenic designations in the past.
    So thank you, Chairman Cassidy. Thank you, Ranking Member 
Heinrich.
    I wish we could do a field hearing with the East Rosebud 
there in the background. Anybody that is not sold on this will 
just need to come out there and see it and you would be sold.
    I also want to thank the Administration for their support, 
and I look forward to moving this bill forward.
    Senator Heinrich. Mr. Chair, do you mind if I ask a 
question of the Senator from Montana?
    You thought you were going to get off easy, didn't you? 
[Laughter.]
    So if Montana looks like that, how do you bring yourself to 
get on the airplane and come back here every week? [Laughter.]
    Senator Daines. The hardest 17 minute ride every Monday 
morning is from my house to the airport.
    Senator Heinrich: I would say that the numbers that you 
referenced are a testament to the work that has gone into this. 
There is almost nothing these days that gets approval ratings 
like that, certainly not those of us who sit on this dais.
    Senator Daines. Right.
    Well thanks, I appreciate it.
    Senator Cassidy. I will also note that you pronounce creek 
like Jimmy Stewart did in Mr. Smith goes to Washington. 
[Laughter.]
    So anyway, I assume crick is creek.
    Senator Daines. It was a crick. A creek is a crick. 
[Laughter.]
    And a coyote is not a coyote, it is a cayote, just for the 
Montana people that are here.
    Senator Cassidy. I have no more questions.
    Senator, do you?
    Thank you, Ms. O'Dell, for your testimony.
    If there are no more questions today, members may also 
submit follow up written questions for the record. The hearing 
record will be open for two weeks.
    Again, thank you for your time and your testimony today.
    Ms. O'Dell. Thank you, Senator, thank you.
    Senator Cassidy. This hearing is adjourned.
    [Whereupon, at 3:33 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
